No, 20-27

IN THE
SUPREME COURT OF THE UNITED STATES

JENNIFER PASKERT,

Petitioner,

KEMNA-ASA AUTO PLAZA, INC., et al.
Respondents
On Petition for a Writ of Certiorari

To the United States Court of Appeals
For the Eighth Circuit

MOTION TO DELAY DISTRIBUTION
OF PETITION FOR WRIT OF CERTIORARI

 

ERIC SCHNAPPER

Counsel of Record
University of Washington School of Law
P.O. Box 353020
Seattle, Washington 98195
(206) 616-3167
schnapp@u.washington.edu

Counsel for Petitioner
Pursuant to this Court's order of March 19, 2020, petitioner moves for a two-week delay
of the distribution of the petition for writ of certiorari in this case, due to difficulties related to
COVID-19.

The brief in opposition in this case was filed on October 16, 2020. Under the Clerk's
ordinary practice, the petition for writ of certiorari would be distributed on Wednesday, October
28, 2020. If the motion to delay distribution is granted, the petition would be distributed on
Wednesday, November 11, 2020.

The delay is requested because counsel for petitioners needs additional time to file a
reply due to difficulties related to COVID-19. The University of Washington, where counsel's
office is located, is closed except for certain exemptions ‘not relevant here. In addition,
individuals of the age of counsel for petitioners have been strongly advised by state and federal
authorities to remain at home as much as possible. Preparation of the reply brief, under these
conditions, will involve significant unavoidable delay.

Counsel for respondent does not oppose this motion.

Wherefore petitioner respectfully requests the Clerk to delay distribution of the petition

for writ of certiorari until November 11, 2020. we

 

Kiva An *

Counsel of Record.
University of Washington
School of Law”

P.O. Box 353020

Seattle, Washington 98195
(206)616-3167
schnapp@u.washington.edu

Counsel for Petitioner
October 23, 2020

 
